UNITED STATES OF AMERICA
FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

 

Division of Enforcement
Bureau of Consumer Protection

March 27, 1998

John F. Sterling

Associate General Counsel
Pillowtex Corporation
4111 Mint Way

Dallas, Texas 75237-1605

Dear Mr. Sterling:

This is in reply to your letter of February 13, 1998, addressed to Donald S. Clark,
Secretary of the Commission, requesting an advisory opinion on behalf of your client, Fieldcrest
Cannon, Inc., with regard to fiber labeling requirements of the Textile Fiber Products
Identification Act and the rules and regulations thereunder. Your question concerns appropriate
labeling for a cotton towel, or other terry cloth product, consisting of Egyptian (or Pima or
combed") cotton loops with an upland cotton ground or base. Specifically, you ask whether this
product may be labeled "100% Cotton, 100% Egyptian Cotton Loops," or whether a more
detailed disclosure is required, such as "Pile: 100% Egyptian Cotton; Ground: 100% Upland
Cotton (ground constitutes 60% of fabric and pile 40%)."

Staff members in the Division of Enforcement, Bureau of Consumer Protection, have
reviewed the legal analysis set forth in your letter, and are in general agreement with it. If the
loops and base of a pile fabric towel are entirely cotton, with the loops composed of 100%
Egyptian (or Pima or "combed") cotton and the base composed of a different type of cotton, such
as Upland cotton, staff believes that a truthful disclosure, such as "100% Cotton, 100% Egyptian
Cotton Loops," would comply with the fiber identification requirements of the Textile Act and
Rules. Where both the base and the loops are of the same generic fiber classification, it is staff's
opinion that there is no requirement, pursuant to Textile Rule 24 (16 C.F.R. ยง 303.24), to state
the ratio of the base and loops to the total fabric weight, or to state the different types of fibers
used in the base and the loops. Manufacturers may choose to identify the base, for example, by
saying "100% Cotton, Egyptian Cotton Loops and Upland Cotton Base," but such additional
disclosure would not be required. In contrast, if the base and loops were composed of different
generic fibers, and the manufacturer chose to identify the base and loops separately on the label,
then the full disclosure, with relative weights as set forth in Textile Rule 24, would be required.
Staff believes that part of the underlying intent of Textile Rule 24 is to assist consumers in
distinguishing between different generic classifications of fibers, rather than between different
types of fibers of the same generic classification.
John F. Sterling, Esq., page 2

Of course, care must be taken to avoid deception if labeling or advertising makes
reference to a premium fiber that is used in only a portion of the textile product. For example,
references to a premium cotton cannot be used deceptively to imply that the entire product is
made of the premium cotton, if such is not the case. Moreover, a trademark that implies the
presence of a premium cotton (such as a trademark that includes a slightly altered form of the
words "Pima" or "Egyptian") may trigger the need for additional disclosures to avoid a
misleading implication that the product is composed solely of the premium cotton, if such is not
the case. I refer you generally to Sections 303.16, 303.17, 303.18, 303.40, and 303.41 of the
Textile Rules. As you may know, the Textile Rules recently were revised by the Commission.
For your convenience, I am enclosing a copy of the revised Rules and the Federal Register notice
announcing the amendments.

Commission staff will revise the appropriate section in the FTC leaflet, "Calling It
Cotton," to reflect more accurately the requirements pertaining to the labeling of pile fabrics. We
appreciate your bringing this issue to our attention.

As I am sure you are aware, this staff opinion in no way limits or changes any of the
provisions of the Consent Decree, entered June 6, 1997, in the matter of United States of
America v. WestPoint Stevens, Inc., Civ. No. 97-4085, U.S.D.C., Central District of California.

In accordance with Section 1.3(c) of the Commission's Rules of Practice and Procedure
(16 C.F.R. ยง 1.3(c)), this is a staff opinion that has not been reviewed or approved by the
Commission or by any individual Commissioner, and is given without prejudice to the right of
the Commission later to rescind the advice and, where appropriate, to commence an enforcement
action.

In accordance with Section 1.4 of the Commission's Rules of Practice and Procedure (16
C.F.R. ยง 1.4), your request for advice, along with this response, will be placed on the public
record.

I hope this has been helpful. If you have any questions, do not hesitate to write to me or
call me at 202-326-3161.

Very truly yours,
fie 9 ev fay

Mary K. Engle
Assistant Director

Attachment
